                                      NATIONAL SCIENCE FOUNDATION




           -
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                  ACTION MEMORANDUM
                                                                                                            11
1 TO: AIGI     ( File Number: iAiWE@W                                         I Date:   March 25,2002   .   111
Subject:                                                                                  Page 1 of 1



      Action: Case Close


         1. A proactive review of agency-wide purchase card statements by
                                  in the individual statement transactions for
                                 ,Advanced Networking Infrastructure and Research Division.

        2. A proactive review of agency-wide purchase card statements generated a questionable
           purchase in the individual statement transactions for the SUBJECT. An interview with
           SUBJECT'S division director justified all expenditures.

        3. This investigation is closed and no hrther action is being taken by OIG at this time.




                Prepared by:                     Cleared by:

               Agent:          Attorney:       Supervisor:     AIGI
   Name:



 Signature &
    date:
